CERTIFICATE OF SERVICE
No. 20Warren Keith Henness,
Petitioner,
v.
Mike DeWine, et al.,
Respondents.
I, Jean-Claude André, do hereby certify that, on this seventeenth day of July,
2020, I caused one copy and an electronic copy of the Petition for a Writ of
Certiorari in the foregoing case to be served by first class mail, postage prepaid, and
by email, on the following parties:
Benjamin M. Flowers
Solicitor General
Michael J. Hendershot
Chief Deputy Solicitor General
Office of the Ohio Attorney General
30 East Broad Street
Columbus, OH 43215
(614) 466-8980
Benjamin.Flowers@
OhioAttorneyGeneral.gov
Michael.Hendershot@
OhioAttorneyGeneral.gov

Charles L. Wille
Assistant Attorney General
Office of the Ohio Attorney General
150 East Gay Street, 16th Floor
Columbus, OH 43215
(614) 728-7055
Charles.Wille@
OhioAttorneyGeneral.gov

Counsel for Respondents Mike DeWine, et al.
/s/ Jean-Claude André
JEAN-CLAUDE ANDRÉ
SIDLEY AUSTIN LLP
555 W. Fifth Street
Suite 4000
Los Angeles, CA 90013
(213) 896-6000

